3ht tlje Supreme Court of tfje Uniteti States
Alexander Christian Miles,
Applicant
v.
United States of America
Respondent

Certificate of Service

The undersigned Petitioner certifies under penalty of perjury that one
unbound copy of the Petition for a Writ of Certiorari was sent via Three Day Service
to the U.S. Supreme Court in accordance with the Supreme Court’s Order of April 15,
2020. 3 unbound copies were further mailed by regular U.S. mail, postage prepaid,
to the following party:
The Honorable Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., NW
Washington, DC 20530-0001

Executed March 22, 2021

Alexander C.
ISQ.
Brahegatan 15
Stockholm, Sweden
acmilesesa@gmail.com
Petitioner

